  ARMY HEALTHCARE ENTERPRISE MANAGEMENT SYSTEM


Report No. D-2001-034                     January 16, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD
  Home Page at: www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at (703)
  604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                      Inspector General, Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800) 424-
  9098; by sending an electronic message to Hotline@dodig.osd.mil; or by writing to
  the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The identity of
  each writer and caller is fully protected.




Acronyms
DFARS                 Defense Federal Acquisition Regulation Supplement
DFAS                  Defense Finance and Accounting Service
EMS                   Enterprise Management System
FAR                   Federal Acquisition Regulation
GSA                   General Services Administration
ITBC                  Information Technology Business Center
MHSS                  Military Health Services System
MIPR                  Military Interdepartmental Request
O&M                   Operation and Maintenance
USC                   United States Code
                       Office of the Inspector General, DoD
Report No. D-2001-034                                                  January 16, 2001
  (Project No. D2000CH-0108)

             Army Healthcare Enterprise Management System

                                Executive Summary

Introduction. The audit was performed in response to allegations to the Defense Hotline
concerning the procurement of the Army Healthcare Enterprise Management System.
The complaint alleged that the Army Healthcare Enterprise Management System was not
properly competed, potential conflicts of interest existed, and possible contract
performance problems existed. The complainant also alleged that the Fort Sam Houston
Information Technology Business Center, an Army organization, could have obtained
better prices by using an Army blanket purchase agreement to buy the Enterprise
Management System.

The Information Technology Business Center provides information technology services
to Fort Sam Houston tenants which include the Army Medical Command and the Army
Medical Department Center and School. During FY 1999, the General Services
Administration awarded three contracts with a total value of about $3.1 million for the
purchase of the Enterprise Management System and consolidation of the computer
servers on behalf of the Information Technology Business Center. The Enterprise
Management System will provide the Information Technology Business Center with the
capability to centrally manage desktop personal computers, distribute software, and
inventory all systems in the local area network.

Objectives. Our objective was to evaluate the allegations to the Defense Hotline and
determine whether the Information Technology Business Center followed procurement
regulations in awarding and administering the Army Healthcare Enterprise Management
System contract. We also reviewed the management control program as it related to the
primary audit objective.

Results. The four allegations made to the Defense Hotline were not substantiated.
However, we identified issues related to planning and funding the Enterprise
Management System and potential ethics violations.

The Information Technology Business Center did not appropriately fund or plan the
procurement of the Enterprise Management System and a potential violation of the
Antideficiency Act occurred because they used Army FY 1998 operation and
maintenance funds to pay for the Enterprise Management System lease expenses in
FYs 1999 and 2000. In addition, the Information Technology Business Center
inappropriately used Army operation and maintenance funds instead of procurement
funds to pay for a capital lease and Enterprise Management System installation costs.
The Information Technology Business Center also arranged a questionable lease
agreement for the Enterprise Management System and incurred $176,112 in unnecessary
finance charges and General Service Administration service costs (finding A).

Information Technology Business Center supervisors did not adequately identify and
address potential ethics violations that occurred during the procurement of the Enterprise
Management System. In addition, Information Technology Business Center employees
were placed in a position of increased risk for potential violations of ethics laws and
regulations (finding B).

The Information Technology Business Center had material management control
weaknesses over planning and funding of the Enterprise Management System,
interagency acquisitions, reporting of employee financial interests, and resolutions of
potential conflicts of interest. See Appendix A for details on the management control
program.

Summary of Recommendations. We recommend that the Army investigate and report
on the potential Antideficiency Act violations arising from the Enterprise Management
System contracts. We recommend that the Director, Information Technology Business
Center take action to modify the Enterprise Management System contracts with
appropriate lease provisions and to reduce or avoid the finance charges related to the
lease payments. In addition, we recommend that the Commander, Fort Sam Houston
direct the Staff Judge Advocate to investigate potential conflicts of interest and
recommend appropriate administrative action, and conduct ethics training. We also
recommend that the Director, Information Technology Business Center, request that the
General Services Administration modify the server consolidation contract, and implement
management controls over the reporting and filing of financial disclosure reports.

Management Comments. The Assistant Secretary of the Army (Financial Management
and Comptroller) concurred with the recommendation to investigate and report on the
potential Antideficiency Act violation. Comments from the Deputy Surgeon General of
the Army on Recommendations A.2., B.1., and B.2. were received too late to be
considered in preparing the report. Therefore, if the Deputy Surgeon General of the
Army does not submit additional comments, we will consider the comments received as
the response to the final report. See the Finding section of the report for a discussion of
management comments and the Management Comments section of the report for the
complete text of the comments.

Audit Response. The Assistant Secretary of the Army (Financial Management and
Comptroller) comments were responsive. We request that the Deputy Surgeon General
of the Army submit additional comments by March 16, 2001.




                                             ii
Table of Contents

Executive Summary

Introduction
     Background                                                                1
     Objectives                                                                2

Findings
     A. Funding and Planning the Enterprise Management System                  3
     B. Financial Interests                                                   12

Appendixes
     A. Audit Process
          Scope and Methodology                                               17
          Management Control Program Review                                   18
          Prior Coverage                                                      19
     B. Summary of Allegations and Audit Results                              20
     C. Funding and Leasing Criteria                                          22
     D. Report Distribution                                                   25


Management Comments
     Assistant Secretary of the Army (Financial Management and Comptroller)   27
Background
    The audit was conducted in response to allegations to the Defense Hotline that the
    Fort Sam Houston Information Technology Business Center (ITBC) did not
    effectively manage the Enterprise Management System (EMS) procurement.

    ITBC Mission. The ITBC mission is to provide information support services to
    Fort Sam Houston and its tenants. The Army Medical Command and the Army
    Medical Department Center and School are major tenants on Fort Sam Houston.
    The ITBC provides services related to telecommunications, visual information,
    records management, publishing and printing, library management, and
    automation. The automation area encompasses computers, software, support
    services, and management of the data/information processing facilities. Specific
    ITBC automation services include:

           •   developing and maintaining the installation's information resources
               management program,

           •   validating and coordinating information requirements,

           •   developing cost estimates for the purchase of automation hardware and
               software applications,

           •   overseeing and managing the development and enforcement of
               security policies, and

           •   training installation personnel.

    Enterprise Management System Project. In August 1998, the Commander,
    Army Medical Department Center and School, approved and funded the EMS
    project. The EMS project expanded rather than replaced or repaired the existing
    Fort Sam Houston information technology capabilities. The project consisted of
    leasing EMS hardware and software, and consolidating the computer servers. The
    EMS provided ITBC with the capability to centrally manage desktop personal
    computers, distribute software, and inventory all systems in the local area
    network. Upon completion, the EMS project will provide remote management for
    4,500 desktop computers, 1,000 printers, and 75 servers. The ITBC selected the
    EMS made by Tivoli Systems/IBM Corporation for installation at Fort Sam
    Houston. Army Medical Command Policy 25-98-04, “Policy for Information
    Architecture Standards,” August 19, 1998, established the Tivoli EMS as the
    standard network software. The ITBC used the General Services Administration
    (GSA) to contract for planning, designing, installing, and testing the EMS for the
    Fort Sam Houston network. The GSA awarded contracts to Software
    Professionals, Inc. (Software Professionals), McBride and Associates, and Dell
    Computer Corporation (Dell Computer). The Software Professionals contract was
    for the consolidation of the Fort Sam Houston servers. The Dell Computer
    contract was for the leasing of the servers used in the server consolidation. The
    McBride and Associates contract was for the installation and leasing of the EMS
    hardware and software. Table 1 shows the contract numbers and the total value of
    the contracts.
                     Table 1. Enterprise Management System Procurements

                                         Contract Number/            Award       Contract
               Contractor                 Delivery Order              Date       Amount
      Software Professionals     GS-35F-5404H/T0799BG0745 May 21, 1999         $ 246,829
      McBride and Associates     GS-35F-4569G/T0799BG0766 June 1, 1999          2,370,900
      Dell Computer              GS-35F-4076D/T0799BG0799 June 11, 1999           484,281
       Total amount of contract awards                                         $3,102,010
      GSA contracting fee                                                          41,259
          Total value of procurements                                          $3,143,269*
      *
          Includes unfunded FYs 2001 and 2002 lease costs totaling $961,269.




Objectives
     Our objective was to evaluate four specific allegations to the Defense Hotline and
     determine whether the ITBC followed procurement regulations in awarding and
     administering the Army Healthcare Enterprise Management System contract. We
     also reviewed the management control program as it related to the audit objective.
     See Appendix A for a discussion of the audit process and the review of the
     management control program. See Appendix B for a discussion of the allegations
     to the Defense Hotline.




                                                2
            A. Funding and Planning the Enterprise
               Management System
            The ITBC did not appropriately fund or effectively plan the EMS
            procurement. The funding for the EMS procurement was inappropriate
            because ITBC officials did not comply with regulations when they
            provided GSA $2.2 million in Army operation and maintenance (O&M)
            funds at the end of the fiscal year. The ineffective planning for the EMS
            procurement occurred because ITBC officials did not comply with
            policies, procedures, and regulations on:

              •   preparing lease purchase analysis,

              •   preparing funding documents, or

              •   documenting the EMS budget or cost estimates.

            As a result, potential violations of the Antideficiency Act may have
            occurred because ITBC inappropriately used $2.2 million in FY 1998
            O&M funds for the EMS procurement. In addition, ITBC arranged a
            questionable lease agreement for the EMS hardware and software, and
            incurred $176,112 in unnecessary finance charges and GSA service fees.

Criteria for Leasing, Interagency Acquisitions, and
Antideficiency Violations
     In the absence of other specific statutory authority, interagency acquisitions are
     governed by title 31, United States Code, section 1535 (31 U.S.C. 1535) also
     known as the Economy Act. Section 1501, title 31 (31 U.S.C. 1501) also plays
     a role by providing the standards for recording obligations of Government
     funds. Section 757, title 40, United States Code (40 U.S.C. 757) provides the
     statutory authority for the Information Technology Fund, which GSA used to
     award the EMS contracts. The DoD Financial Management Regulation and the
     General Accounting Office Principles of Federal Appropriation Law provide
     detailed guidance to implement those statutes. The Federal Acquisition
     Regulation (FAR), Defense Federal Acquisition Regulation Supplement
     (DFARS), and DoD Instructions provide specific guidance for DoD
     organizations to consider before awarding contracts for leased equipment. The
     DoD Financial Management Regulation and Office of Management and Budget
     Bulletins provide additional guidance on funding leases. See Appendix C for
     additional details on these laws and regulations.

EMS Funding
     Army Fund Transfers. In August 1998, ITBC had unfunded requirements of
     $875,000 and $807,000 for the EMS and server consolidation. The Army
     Medical Department Center and School sent a MIPR (Military Interdepartmental
                                          3
Purchase Request) to ITBC transferring $1,682,000 in FY 1998 O&M funds for
the EMS and server consolidation on September 16, 1998. The Army Medical
Department Center and School funded the ITBC requirements with O&M funds
because procurement funds were not available. ITBC issued a MIPR
transferring $1,682,000 in FY 1998 O&M funds to GSA for the server
consolidation project September 23, 1998. ITBC issued a MIPR transferring an
additional $500,000 in FY 1998 O&M funds to GSA for the enterprise servers
on September 30, 1998. GSA accepted the MIPRs on September 25, 1998, and
September 30, 1998, resulting in obligations of the funds on Army financial
records.

GSA Contracting Actions. GSA awarded three delivery orders for the EMS
procurements against the contracts shown in Table 1. The delivery orders had a
total value of about $3.1 million and assessed service fees totaling $41,259 for
GSA contracting support. A chronology of the GSA contracting actions and
specific assessments are shown in Table 2.

       Table 2. Chronology of GSA Contracting Actions for the EMS Procurements

 Date________     ____________Event_____________         _____Contractor_____        Amount

 May 21, 1999     Delivery order T0799BG0745             Software Professionals   $ 246,829
                  awarded for server consolidation

 June 1, 1999     Delivery order T0799BG0766             McBride and Associates 1,578,741
                  awarded for EMS installation

 June 1, 1999     Contracting service fee assessed                N/A                31,574
                  for EMS procurements

 June 11, 1999    Delivery order T0799BG0799             Dell Computer              295,918
                  awarded for leased servers

 June 18, 1999    Modification AC01 issued to delivery Dell Computer                188,363
                  order T0799BG0799 for leased servers

 June 18, 1999    Contracting service fee for leased              N/A                  9,685
                  servers

 March 28, 2000   Modification AS01 issued to delivery   McBride and Associates     792,159*
                  order T0799BG0766 for EMS lease
                  costs

                  Total value of procurements                                     $3,143,269
                  Less Funds provided by ITBC                                      2,182,000
                  Total unfunded lease costs                                      $ 961,269

 *$55,008 was funded with FY 1998 O&M funds and $737,151 will be funded with future year
  funds.



                                         4
EMS Procurement Planning
    Preparation of Lease Purchase Analysis. The Fort Sam Houston Installation
    Commander cited the Assistant Secretary of Defense (Health Affairs) policy on
    “Military Health Services System (MHSS) Information Technology Leasing
    Policy,” November 12, 1997, as the authority for leasing the information
    technology assets, including software. The policy authorizes purchases of
    information technology assets if military medical readiness is not adversely
    impacted. The policy does not require a lease purchase analysis, however,
    FAR 7.4, “Equipment Lease or Purchase,” states that agencies should evaluate
    comparative costs and other factors, when determining whether to lease or
    purchase equipment. DFARS 207.401, “Acquisition Considerations,” states
    that agencies must prepare and provide the contracting officer with the
    justification supporting the decision to lease or purchase, if the equipment will
    be leased for more than 60 days. In addition, Army Regulation 25-1,
    “Information Management,” March 25, 1997, states that the most cost-effective
    method for obtaining software will be used. Army Regulation 25-1 also states
    that a lease purchase analysis should be prepared on all acquisitions to determine
    the most economical way to acquire proprietary software licenses. The lease
    purchase analysis would have evaluated such factors as the period of use,
    alternative types and makes of equipment, and net purchase price. ITBC did not
    prepare a lease purchase analysis, or determine the most economical method of
    obtaining the software that DFARS 207.401 and Army Regulation 25-1
    requires. A lease purchase analysis would have enabled ITBC to determine
    whether purchasing the EMS and servers was cost-effective and if not, provided
    an opportunity to request a waiver to the leasing policy.

    Inspector General, DoD, Report No. 99-195, “Contract Actions for Leased
    Equipment,” June 30, 1999, determined that the Army and other DoD
    organizations did not always perform (or properly perform) required lease
    purchase analyses before awarding contracts for leased equipment. The
    deficiencies identified in Report No. 99-195 occurred on contracting actions
    from October 1, 1995 through February 28, 1997. In response to
    recommendations in that report, the Deputy Assistant Secretary of the Army
    (Procurement) issued a memorandum August 12, 1999. The memorandum
    reminded Army contracting officers to review the lease purchase analyses before
    awarding any new contracts or extending existing contracts for leased
    equipment. Accordingly, we are not recommending that the Army take
    additional corrective action as a result of this audit. Army contracting officers
    are required to review the lease purchase analysis, so the guidance in the
    memorandum should provide sufficient control for leasing actions on
    interagency acquisitions.

    Funding Documents. ITBC arranged for GSA to award the EMS and server
    consolidation contracts using the GSA Information Technology Fund. ITBC
    officials chose to use GSA contracting services instead of an Army contracting
    office for the EMS procurement. ITBC officials stated that they used GSA
    because O&M funds could be converted to multiyear funds by using the GSA
    Information Technology Fund. Also, GSA customers could record valid
    obligations of funds when executing an interagency agreement if there was a
                                        5
bona fide need for the products or services, within the scope of the interagency
agreement. The funds were available for the entire period of performance, even
if such performance crossed fiscal years.

On June 1, 1995, the Army Medical Command established a memorandum of
understanding with GSA for Federal information support services. The
memorandum of understanding states that the GSA Technical Support Division
will provide information processing services to the Army through delivery
orders issued to contractors. The memorandum of understanding requires the
Army to comply with its own procurement regulations and policies. The
memorandum of understanding also requires funding documents to “. . . cite the
amount being obligated by the client (including GSA surcharge) and will
describe the project(s) and the agency requirement that will be met by the
project(s).” The Defense Finance and Accounting Service Regulation (DFAS)
37-1, “Finance and Accounting Policy Implementation,” provides specific
instructions for completing MIPRs. The DFAS instruction requires agencies to
enter a description for each type of work/service requested. In addition,
DFAS 37-1 provides a sample of a completed MIPR with a detailed description
of the work/services requested.

ITBC used the MIPRs to provide GSA funds for the EMS and the server
consolidation projects. The ITBC MIPR submissions did not comply with the
memorandum of understanding or DFAS Regulation 37-1. The ITBC MIPRs,
and their acceptance by GSA, lacked essential details to determine whether the
MIPRs were issued or accepted under 40 U.S.C. 757 (Information Technology
Fund) or the memorandum of understanding. In addition, ITBC did not
describe the EMS or server consolidation projects on the MIPRs or provide
specific information that GSA needed to determine the scope of the work or
services that ITBC was requesting.

Information Management Project Document. The ITBC director approved
the EMS because the capability of ITBC to monitor and repair the automation
equipment attached to the Fort Sam Houston network was limited. The ITBC
director issued a memorandum formally approving the EMS project on July 28,
1998. The memorandum states that the approval became invalid on
September 30, 1998, “. . . if the equipment and/or service has not been
procured or is not in the process of being procured.” The EMS project
document accompanying the memorandum did not contain essential information
such as acquisition cost, type of funds, number of client workstations and
servers, and the annual maintenance costs. Army Regulation 25-1 states that the
information management requirement/project document (DA Form 5695) is a
life cycle management document used to identify, document, and justify
requirements for information management systems that exceed $100,000.

EMS Independent Cost Estimate. ITBC did not prepare a cost estimate for
the EMS and server consolidation that documented the least expensive
acquisition method. DoD Instruction 7041.3, “Economic Analysis for
Decisionmaking,” November 7, 1995, and Army Regulation 11-18, “The Cost
and Economic Analysis Program,” January 31, 1995, require Army
organizations to prepare a comparative cost analysis to show that the lowest cost
method of acquisition has been considered as the least expensive life-cycle cost
                                    6
    to the Government. ITBC provided GSA with cost estimates of $1.6 million
    and $600,000 for the estimated procurement cost of the EMS and server
    consolidation. However, the $1.6 million cost estimate for the EMS was about
    $800,000 less than the actual contract cost of about $2.4 million. The server
    consolidation cost estimate of $600,000 was about $140,795 less than the actual
    contract costs of $740,795. The “Army Economic Analysis Manual,” June
    1995, states that the documentation for a cost estimate must provide an audit
    trail which includes the computations and methodologies used to develop the
    estimate. ITBC officials did not document their cost estimates and were unable
    to fully explain the large discrepancies in the estimates. The ITBC Business
    Systems Solutions Division Chief (division chief) stated that the $1.6 million
    cost estimate did not include labor for the EMS installation.

Compliance with Financial Laws and Regulations
    Recording Obligations. ITBC officials provided us with documentation from
    GSA to support the obligation of the $2.2 million in O&M funds at the end of
    FY 1998. The GSA documentation states that a customer with an interagency
    agreement may use the Information Technology Fund to record an obligation
    without a contract or task order in place if GSA has accepted the funds.
    However, we find no specific language in 40 U.S.C. 757 that allows a customer
    of the fund to "bank" expired funds for contracts in subsequent periods. ITBC
    may have violated the Antideficiency Act by using $2.2 million in FY 1998
    O&M funds to pay for the installation and leasing of the EMS and servers in
    FYs 1999 and 2000. ITBC may have also violated the Antideficiency Act by
    inappropriately using O&M funds instead of Army procurement funds to pay for
    a capital lease and EMS installation costs.

    Bona Fide Need. ITBC did not establish that a bona fide need existed in
    FY 1998 for the EMS or the server consolidation. Of the $2.2 million in FY
    1998 O&M funds that ITBC sent to GSA, about $691,592 was used for leased
    payments in FYs 1999 and 2000. The remaining $1.5 million was for labor,
    travel, and other direct costs for the installation of the EMS and the server
    consolidation. The bona fide need rule applies to Economy Act orders or orders
    issued under other statutes. Agencies requesting property or services must show
    a legitimate need in the fiscal year of the appropriation in order to apply the
    bona fide need rule. O&M funds are annual appropriations that agencies cannot
    use for future needs after expiration of the funds. The General Accounting
    Office Appropriation Law, volume 1, chapter 5, states “. . . if deliveries are
    scheduled only for a subsequent fiscal year, or if contract timing effectively
    precludes delivery until the following fiscal year, it will be presumed that the
    contract was made in the earlier fiscal year to obligate funds from an expiring
    appropriation and that the goods or materials were not intended to meet a bona
    fide need of that year.” In general, services that are continuing and recurring in
    nature are severable and the services must be charged to the fiscal year in which
    they are rendered. ITBC lack of planning in FY 1998, and the fact that GSA
    awarded the EMS contracts 8 months after the expiration of the O&M funds,
    indicate that the EMS project was not a FY 1998 requirement. In addition, the
    ITBC lease agreements met the definition of recurring services that are
    severable between fiscal years. The ITBC lease agreements for the server
                                        7
consolidation and EMS hardware were for a 36-month period from July 1, 1999
to June 30, 2002. The ITBC lease agreement for the EMS software covered the
period from December 1, 1999 to November 30, 2002.

Another indication that ITBC did not have a bona fide need in FY 1998 for the
EMS was that the MIPRs ITBC sent to GSA did not meet the requirements
outlined in 31 U.S.C. 1501, DFAS Regulation 37-1, or the memorandum of
understanding. Section 1501(a)(1), title 31, requires that agencies have
documentary evidence of a binding agreement for specific goods or services
before recording a valid obligation. The memorandum of understanding
between GSA and the Army Medical Command requires that funding documents
provide a description of the projects. The ITBC MIPRs provided to GSA
indicated “The list of items to be leased and/or purchased will be sent at a later
date.” A handwritten note in parentheses on the MIPRs states, “server
consolidation for EMS.” ITBC officials maintained that the MIPRs clearly
indicated to GSA that the funds were for the EMS server consolidation.

We disagree that the ITBC MIPRs identified specific goods and services. ITBC
identified EMS and server consolidation as two separate projects. The phrase
“server consolidation for EMS” does not describe either project. The EMS was
a complicated project involving designing, installing, and testing the EMS
hardware and software on 4,500 computers and 1,000 network printers. In
addition, the EMS contractor was to provide classroom and on-the-job training
for ITBC personnel. The server consolidation involved leasing and installing 75
servers. ITBC did not provide GSA the statement of work with the details of
the EMS and server consolidation projects until January 14, 1999.

Funding of Capital Leases. ITBC did not comply with 31 U.S.C. 1301 and a
potential violation of the Antideficiency Act occurred by using O&M funds to
fund a capital lease on the McBride and Associates contract. Procurement funds
must be used for capital leases and O&M funds are used for operating leases.
Of the $691,592 total lease payments, ITBC used approximately $310,882 for
the EMS software lease. The present value of the EMS software lease payments
could not exceed 90 percent of the assets’ fair value to qualify as an operating
lease. See Appendix C for a discussion of the criteria related to capital leases
funding.

In response to our inquiries, ITBC prepared an economic analysis that calculated
the present value of $971,907 for lease payments over 3 years totaling
$1,064,664 for the EMS software. ITBC used the EMS software prices in
effect on GSA contract GS35F-4984H with International Business Machines in
May 1999 to determine the fair market value. ITBC determined that the GSA
schedule price for the EMS software was $1,231,432. ITBC stated that IBM
informed them “. . . for a $1.2 million order, an agency could reasonably
expect to negotiate a 5-10 percent discount under the contract.” ITBC used a
10 percent discounted price of $1,108,289 because we questioned their use of
the $1,231,432 fair market value in their present value calculation. Contract
GS35F-4984H limited customer orders to a maximum value of $500,000. The
contract states that the maximum order threshold “. . . represents the point
where it is advantageous for the ordering office to seek a price reduction”

                                    8
    directly from the contractor. ITBC concluded that the EMS software lease was
    an operating lease based on a present value of $971,907 that was 88 percent of
    the fair market value ($1,108,289).

    We disagree that the EMS software lease was an operating lease. GSA and
    McBride and Associates provided us documentation that showed total EMS
    software lease payments of $1,100,619. The total software lease payments of
    $1,100,619 result in a present value of $1,004,729 or 91 percent of the ITBC
    fair market value ($1,108,289). We concluded that the EMS software lease was
    a capital lease that required procurement funds. We also disagree that ITBC
    could only obtain a 10 percent discount off the GSA schedules. In FY 1999, the
    Army Communications-Electronics Command demonstrated that substantial
    discounts were obtainable from GSA schedules. The Command negotiated four
    agreements for various information technology products and services ranging
    from 42 percent to 64 percent off the GSA schedules. The Command also
    negotiated a customer agreement for the purchase of EMS software that offered
    discounts from the GSA price schedule. The Army awarded the blanket
    purchase agreement 1 month after the McBride and Associates contract award.
    The EMS cost, using the blanket purchase agreement prices, was $968,561 or
    about 21 percent less than the GSA schedule price. We believe that the
    $968,561 represents a more accurate estimate of the fair market value. The
    Statement of Federal Financial Accounting Standards No. 6, “Accounting for
    Property, Plant, and Equipment,” June 1996, stated that fair market value is the
    price for which an asset could be bought or sold in an arm’s-length transaction
    between unrelated parties (for example, between a willing buyer and a willing
    seller). The $968,561 was the result of Army Communications-Electronics
    Command negotiations for EMS software prices.

    Funding Installation Costs. ITBC used O&M funds for about $1.0 million in
    EMS installation costs on the McBride and Associates contract, and $246,829
    for the installation of leased servers on the Software Professional contract. The
    $1.0 million and $246,829 installation costs were primarily labor costs of
    McBride and Associates and Software Professionals, respectively. In general,
    investments exceeding $100,000 are capital assets that should be funded with
    procurement funds. DoD Financial Management Regulation, volume 2A,
    provides the criteria for determining whether an item is an expense or an
    investment. The Financial Management Regulation states that the labor of
    contractor personnel included in the production or construction of a capital asset
    shall be classified as an investment cost.

EMS Lease Agreement
    Lease Documentation. As a result of inadequate planning, ITBC initiated a
    questionable lease agreement and maintained insufficient controls over leased
    assets. A GSA official informed ITBC that the statement of work on the
    McBride and Associates and Software Professionals contracts constituted the
    lease agreements. The GSA official stated that GSA was not involved in the
    vendors’ internal leases process. The statement of work did not address an
    EMS software lease, or identify lease payments or disposition of leased assets.
    ITBC was unable to adequately describe the lease terms for the EMS software.
                                        9
    In response to our inquiries concerning the EMS software lease, McBride and
    Associates informed GSA in a letter dated May 16, 2000, that when the lease
    expires, the Government could return the leased products or extend the lease for
    $25,000 per year. McBride and Associates stated that Systems Finance
    Corporation was the lessor for the EMS hardware and software. We believe
    that GSA should modify delivery order T0799BG0766 to McBride and
    Associates to include the monthly lease cost and the options at the end of the
    EMS leases.

    Lease Costs. The EMS software lease was not cost-effective. ITBC incurred
    additional finance charges of $172,659 for leasing the EMS software and $3,453
    in GSA service fees. In addition, ITBC must either extend the lease for $25,000
    per year or obtain (through lease or purchase) a new EMS at the end of the 36
    month lease. Furthermore, ITBC incrementally funded the last 2 years of the
    EMS software lease thereby increasing the Army risk of losing leased assets if
    funding is not available.

Recommendations and Management Comments
    A.1. We recommend that the Assistant Secretary of the Army (Financial
    Management and Comptroller):

            a. Investigate delivery order T0799BG0766 on contract
    GS-35F-4569G, delivery order T0799BG0799 on contract GS-35F-4076D,
    and delivery order TO799BG0745 on contract GS-35F-5404H for potential
    Antideficiency Act violations arising from the use of Army FY 1998
    operation and maintenance funds to pay for EMS lease expenses in FYs
    1999 and 2000 and the improper funding of a capital lease and labor costs
    for installation of a capital asset.

          b. Comply with the reporting requirement in DoD Financial
    Management Regulation 7000-14-R, volume 14, “Administrative Control of
    Funds and Antideficiency Act Violations,” if any violations of the
    Antideficiency Act occurred,

           c. Provide a copy of the preliminary review report, the monthly
    status report on the formal investigation, and the final formal investigation
    report to the Inspector General, DoD.

    Army Comments. The Assistant Secretary of the Army (Financial
    Management and Comptroller) concurred with the recommendation. On
    October 24, 2000, the Assistant Secretary directed the Commander, Army
    Medical Command to investigate the potential Antideficiency Act violation on
    the EMS contracts and to prepare the required reports. The Assistant Secretary
    also stated that the preliminary report would be forwarded to the Inspector
    General, DoD.




                                       10
A.2. We recommend that the Director, Information Technology Business
Center:

      a. Request that the General Services Administration modify delivery
order T0799BG0766 on contract GS-35F-4569G to include monthly lease
payments and Government options at the end of the lease.

      b. Determine whether the $172,659 in finance charges and $3,453 in
General Service Administration service fees can be reduced or avoided
through a lump sum payment on delivery order T0799BG0766 on contract
GS-35F-4569G and provide the funds, if available, to the General Service
Administration.

      c. Use Army procurement funds for the unfunded increments of the
Enterprise Management System software lease.

Management Comments Required. Comments on the draft report were
received from the Deputy Surgeon General of the Army too late to be
incorporated into the final report. Therefore, if the Deputy Surgeon General
does not submit additional comments, we will consider those comments as the
management response to the final report.




                                  11
           B. Financial Interests
           ITBC supervisors did not adequately identify and address potential
           conflicting financial interests that occurred during the procurement phase
           of the Enterprise Management System (EMS). Specifically, ITBC
           supervisors did not:

             •   consult Army ethics counselors about a potential conflict of interest
                 issue;

             •   conduct adequate reviews of financial disclosure reports; or

             •   update position descriptions to include a requirement to file
                 financial disclosure reports.

           The situation occurred because ITBC supervisors consulted GSA
           contracting officials instead of an Army ethics counselor to resolve a
           potential conflict of interest issue. In addition, ITBC supervisors did not
           comply with instructions from the Staff Judge Advocate and the DoD
           Joint Ethics Regulation for reviewing financial disclosure reports or
           updating employee position descriptions. The inadequate response of
           ITBC supervisors prevented the Army from preserving the integrity of the
           procurement process by identifying and resolving potential conflicts of
           interest at the earliest possible moment. In addition, ITBC employees
           were placed in a position of increased risk for violating the procurement
           integrity laws and regulations, which could result in administrative and
           criminal penalties.

DoD Ethics Regulation
    DoD 5500.7-R, “Joint Ethics Regulation,” August 30, 1993, provides guidance to
    DoD employees and military personnel on standards of ethical conduct and ethics
    guidance, including direction in the areas of financial and employment disclosure
    systems, post-employment rules, enforcement, and training. The regulation
    implements various public laws and Executive Orders on ethical conduct of
    Government personnel. Violations of the standards of ethical conduct can result
    in criminal prosecution or adverse personnel actions.

    Resolving Conflicts of Interest. DoD 5500.7-R states that the resolution of
    actual or apparent conflicts of interest is the responsibility of the DoD Component
    command or organization. The responsible individual should consult with an
    ethics counselor about alternatives for resolution of any conflicts of interest. A
    supervisor who receives a report of a suspected conflict of interest or violation
    should promptly report the matter to an ethics counselor. The supervisor may act
    only after consultation with the local ethics counselor.




                                        12
    Financial Disclosure Reports. FAR 3.104-3, “Definitions,” states that an
    individual participates "personally and substantially" in a procurement, if they are
    actively involved in the preparation of statement of work, evaluation of bids or
    proposals, or selecting a source. DoD 5500.7-R requires DoD employees with
    official responsibilities that require them to participate personally and
    substantially in decisions, or exercise significant judgment in taking an official
    action for contracting or procurement, to file a financial disclosure report. The
    individual should submit an annual financial disclosure report through their
    supervisor to an ethics counselor by November 30. The financial disclosure
    report covers the individual’s financial information such as assets and income,
    liabilities, and outside positions for the preceding 12 months. The supervisor is
    responsible for ensuring that the financial disclosure report is complete and that
    no interest or position violates or appears to violate applicable ethics laws and
    regulations.
    Position Descriptions. DoD 5500.7-R requires personnel offices to coordinate
    with ethics counselors and supervisors to ensure that position descriptions include
    a statement regarding the submission of a financial disclosure report. As
    positions are modified, combined, or added, the duties of each position must be
    reviewed to determine whether a financial disclosure report is required.

Responsibility for Ethics Program Guidance
    The Staff Judge Advocate is responsible for the ethics program at Fort Sam
    Houston. Specifically, the Staff Judge Advocate provides the organizations at
    Fort Sam Houston with ethics counselors, ethics training, and instructions on
    financial disclosure reports. The ethics counselors assist in implementing and
    administering the organization’s ethics program and provides ethics advice to
    DoD employees and supervisors. In addition, the Staff Judge Advocate conducts
    annual ethics training for the supervisors and employees at Fort Sam Houston.

    The Staff Judge Advocate at Fort Sam Houston provided instructions on financial
    disclosure reports that included responsibilities for employees and supervisors.
    On September 1, 1999, the Staff Judge Advocate issued a memorandum that
    provided instructions for the annual financial disclosure reports. The
    memorandum states that supervisors are responsible for reviewing the financial
    disclosure reports for completeness and possible conflicts of interest. The
    memorandum also states that supervisors are responsible for determining which
    employees within their organization are required to file financial disclosure
    reports. The memorandum provided a list of employees filing financial disclosure
    reports the previous year to assist the ITBC supervisors with their determinations.
    The memorandum also states that as employee positions are changed, added, or
    deleted, supervisors must review the position against the standards for filing
    financial disclosure reports. The guidance further requests supervisors to keep the
    Staff Judge Advocate informed of any changes in the employees required to file
    financial disclosure reports.




                                         13
ITBC Management Oversight
    The ITBC director and the division chief did not adequately address a potential
    conflict of interest during the EMS procurement. Also, the ITBC supervisors did
    not ensure that employees’ financial disclosure reports were accurate or that
    position descriptions included the requirement for filing financial disclosure
    reports.

    Potential Conflict of Interest. In December 1998, an ITBC employee informed
    the division chief that their spouse worked for a partner/subcontractor of Software
    Professionals, a potential bidder for the EMS contract. The division chief allowed
    the ITBC employee to participate in the EMS procurement after the employee
    informed him of a potential conflict of interest. The division chief did not notify
    an Army ethics counselor of the potential conflict of interest, or determine
    whether the employee had an actual conflict of interest, or the appearance of
    conflict of interest. Further, the division chief did not document that any action
    was taken to mitigate or address the employee’s conflict of interest or why the
    employee continued to participate in the EMS procurement. The division chief
    stated that he advised GSA of the potential conflict of interest, and a GSA
    contracting official advised him that a conflict of interest did not exist because
    there was no contract with the company. The division chief relied on GSA
    because GSA was awarding the EMS contract for ITBC.

    Subsequently, the division chief assigned the employee to review the technical
    proposals with each contractor’s name and costs removed. The purpose of the
    review was to ensure that the EMS technical review team had covered the
    important points in their analysis. The employee also attended two meetings with
    Software Professionals. The employee participated in a site visit by Software
    Professionals before the contract award on March 10, 1999, and the May 18,
    1999, "kick-off" meeting after the contract award. The employee and the
    employee’s spouse were present at the “kick-off” meeting. The division chief
    removed the employee as the client representative for the Software Professionals
    contract after the kick-off meeting on May 19, 1999. The client representative
    also acts as the contracting officer technical representative by reviewing and
    evaluating the contractor’s technical performance, advising GSA of any problems
    affecting delivery or costs of completed work, and inspecting contract
    deliverables. However, the appearance of a conflict of interest still existed after
    the division chief removed the employee because the Software Professionals’
    contract continued to show the ITBC employee as the client representative. We
    believe that the contract should be modified to remove the ITBC employee’s
    name as client representative and that the Staff Judge Advocate should review the
    actions of the ITBC supervisor and recommend any additional actions, as
    appropriate.

    Supervisory Review of Financial Disclosure Reports. The ITBC director and
    division chief did not adequately review financial disclosure reports as required
    by DoD 5500.7-R and the Staff Judge Advocate’s September 1, 1999 instructions.
    The FY 1999 financial disclosure reports for two ITBC employees involved in the
    EMS procurement did not show that their spouses received salaries from Defense
    contractors. The employees’ omission of the spouses’ salaries from the financial

                                        14
    disclosure reports did not appear to be intentional. The two employees had never
    previously filed financial disclosure reports and may not have fully understood
    the reporting requirements. However, both employees had previously provided
    written statements informing their supervisors of the potential conflicts of interest
    involving their spouses’ employment. One ITBC employee’s spouse was a
    contractor employee working as the ITBC site manager that reported directly to
    the ITBC director from October 1, 1997, through December 8, 1999. The ITBC
    director approved the financial disclosure report for the ITBC employee. The
    ITBC director and the division chief approved the financial disclosure reports
    without questioning the omitted salaries or referring the matter to an ethics
    counselor. In 1998 and 1999 the ITBC director and division chief attended ethics
    training that included conflicts of interest, gifts, official travel, and post-
    Government employment. We believe that the ITBC supervisors should have
    additional ethics training with emphasis on documenting, reporting, and resolving
    conflicts of interest, and reviewing financial disclosure reports.

    Employee Position Descriptions. ITBC management did not include the
    requirement for filing financial disclosure reports in five position descriptions as
    required by DoD 5500.7-R. The deficient position descriptions were those of the
    Enterprise Management Division Chief, EMS Project Manager, and three
    members of the EMS technical review panel. The five employees performed
    duties related to the EMS procurement that met the FAR 3.104-3 definition of
    personal and substantial participation in a procurement action. In addition to the
    actual duties performed on the EMS procurement, the position descriptions for
    four of the five employees contained duties that required filing a financial
    disclosure report. For example, one position description included a requirement
    to review contract proposals and serve as a contracting officer's representative.
    Although three of the employees filed financial disclosure reports for FY 1999,
    ITBC needs to ensure that the position descriptions include a requirement to file a
    financial disclosure report. The position descriptions are a management tool that
    enables an organization to identify employees required to file financial disclosure
    reports and to ensure that annual reporting requirements are met. Consequently,
    ITBC needs to review each position description and, if appropriate, include a
    requirement to file a financial disclosure report. In addition, the Staff Judge
    Advocate should have a complete list of all ITBC employees required to file
    financial reports to ensure that the annual reporting requirements are completed.

Recommendations and Management Comments
    B.1. We recommend that the Commander, Fort Sam Houston direct the
    Staff Judge Advocate to:

          a. Review the potential conflict of interest on the Enterprise
    Management System procurement and recommend administrative action, as
    appropriate.




                                         15
       b. Provide ethics training to all Information Technology Business
Center supervisors on documenting, reporting, and resolving conflicts of
interest, and reviewing financial disclosure reports.

B.2. We recommend that the Director, Fort Sam Houston Information
Technology Business Center:

       a. Review the position descriptions for all Information Technology
Business Center employees and identify those positions that meet the
requirements in Federal Acquisition Regulation 3.104-3 for participating
personally and substantially in Government procurements.

      b. Request that the General Services Administration modify the
Software Professionals contract to change the Information Technology
Business Center client representative.

         c. Modify appropriate position descriptions to include a requirement
to file a financial disclosure report.

       d. Update the list of Information Technology Business Center
employees required to file financial disclosure reports that is maintained by
the Staff Judge Advocate, Fort Sam Houston.

Management Comments Required. Comments on the draft report were
received from the Deputy Surgeon General too late to be incorporated into the
final report. Therefore, if the Deputy Surgeon General does not submit additional
comments, we will consider those comments as the management response to the
final report.




                                   16
Appendix A. Audit Process

Scope and Methodology
    Work Performed. To evaluate the validity of the allegations, we reviewed the
    ITBC procedures for awarding and administering the Army Health Care
    Enterprise Management System contract. We reviewed the 1998 and 1999
    financial disclosure reports and position descriptions for ITBC employees
    involved in the EMS procurement. We also reviewed the steps that ITBC
    supervisors took to report and resolve a potential conflict of interest. We
    reviewed the prices for the EMS software on the McBride and Associates contract
    and the Army blanket purchase agreement negotiated by the Army
    Communications-Electronics Command. The contract documentation that we
    reviewed included solicitations, statements-of-work, contractor price proposals,
    MIPRs, and GSA and contractor correspondence. We interviewed officials from
    the Army Medical Command, Army Communications-Electronics Command,
    ITBC, GSA, contractors, and the complainant.

    DoD-Wide Corporate Level Government Performance and Results Act
    Coverage. In response to the Government Performance Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goal, subordinate performance goal, and
    performance measure.

           FY 2001 DoD Corporate Level Goal 2: Prepare now for an uncertain
           future by pursuing a focused modernization effort that maintains U.S.
           qualitative superiority in key warfighting capabilities. Transform the force
           by exploiting the Revolution in Military Affairs, and reengineer the
           Department to achieve a 21st century infrastructure. (01-DoD-2) FY 2001
           Subordinate Performance Goal (2.3): Streamline the DoD
           infrastructure by redesigning the Department’s support structure and
           pursuing business practice reforms. (01-DoD-2.3) FY 2001 Performance
           Measure 2.3.1: Percentage of the DoD Budget Spent on Infrastructure.
           (01-DoD-2.3.1)

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following objective and goal in the
    Information Technology Management Functional Area:

           Objective: Provide services that satisfy customer information needs.
           Goal: Upgrade technology base. (ITM-2.3)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Contract Management high-risk area.


                                        17
    Use of Computer-Processed Data. We did not rely on computer-processed data
    during the audit.

    Use of Technical Assistance. We obtained legal assistance from the Office of
    General Counsel, DoD, concerning ITBC compliance with laws and regulations
    related to the potential Antideficiency Act violations, adequacy of the lease
    agreements, and the potential conflicts of interest.

    Audit Type, Dates, and Standards. We performed this economy and efficiency
    audit from February 2000 through July 2000 in accordance with auditing
    standards issued by the Comptroller General of the United States, as implemented
    by the Inspector General, DoD. Accordingly, we included tests of the
    management controls that we deemed necessary.
    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD and the GSA. Further details are available upon
    request.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program, August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of Review of Management Control Program. We reviewed the
    adequacy of management controls over the process that ITBC used to plan and
    award the Army Healthcare EMS contract. Specifically, we examined
    management controls over compliance with laws and regulations for funding and
    leasing information technology systems. In addition, we examined management
    controls to ensure that ITBC complied with ethics regulations. We also reviewed
    the adequacy of the self-evaluation of the management control program at ITBC.

    Adequacy of Management Controls. We identified material management
    control weaknesses, as identified by DoD Instruction 5010.40. ITBC had not
    implemented adequate management controls to ensure that a valid lease purchase
    analysis and other planning documents were prepared to support the type and
    amount of funding for the EMS procurement or that interagency acquisitions
    complied with statutory and regulatory requirements. In addition, ITBC did not
    have adequate management controls to report and resolve potential conflicts of
    interest. Recommendations A.1., A.2., B.1., and B.2., if implemented, will assist
    in correcting the cited weaknesses. Also, guidance issued by the Deputy Assistant
    Secretary of the Army (Procurement) on August 12, 1999, should improve the
    controls over lease purchase analyses for acquisitions. A copy of the report will
    be provided to the senior official responsible for management controls in the
    Army.

    Adequacy of Management’s Self-Evaluation. ITBC officials did not identify
    funding and leasing of information technology systems or ethics regulations
                                       18
    compliance as assessable units and, therefore, did not identify or report the
    material management control weaknesses identified by the audit.

Prior Coverage
    Inspector General, DoD, Report No. 99-195, “Contract Actions for Leased
    Equipment,” June 30, 1999




                                         19
Appendix B. Summary of Allegations and Audit
            Results
   Allegation 1. The prices for the EMS on the ITBC contract were higher than the
   prices on a blanket purchase agreement that the Army Communications-
   Electronics Command negotiated on behalf of the Army Small Computer Program
   Office.

   Audit Results. The implication that ITBC could have saved funds by using the
   Army blanket purchase agreement to obtain the Tivoli EMS was not
   substantiated. The ITBC could not have used the Army blanket purchase
   agreement because the agreement was not finalized until June 30, 1999, or one
   month after the ITBC contract. In addition, Communications-Electronics
   Command officials stated that ITBC would not have been aware of the pending
   Army blanket purchase agreement. However, ITBC would have realized
   substantial savings if the Army blanket purchase agreement had been available for
   use. Finding A discusses the differences in price between the ITBC contract and
   the Army blanket purchase agreement.

   Allegation 2. ITBC employees directed the selection of the Tivoli EMS because
   of outside business interests with Tivoli employees.

   Audit Results. The allegation was not substantiated. The ITBC selected the
   Tivoli EMS because the Army Medical Command, Policy 25-98-04, "Policy for
   Information Architecture Standards," August 19, 1998, established the Tivoli
   EMS as the standard networking software, and this decision was supported by the
   work of a Technical Integration Working Group chartered by the Assistant
   Secretary of Defense for Health Affairs. We found no evidence that ITBC
   personnel participated in the study leading to the decision to select the Tivoli
   EMS as the standard. However, we identified a potential conflict of interest
   involving one ITBC employee participating in the EMS procurement. We also
   identified management control weaknesses in the filing, preparation, and review
   of financial disclosure reports for ITBC employees. Finding B addresses the
   potential conflicts of interest and the management control weaknesses related to
   the financial disclosure reports.

   Allegation 3. The EMS contract was not properly competed and "high level"
   officers questioned why the contract was a sole-source procurement.

   Audit Results. The allegation was not substantiated. The EMS solicitation
   required the winning contractor to lease and install the hardware and software for
   the Tivoli EMS. As discussed in the audit response to Allegation 2, ITBC
   selected Tivoli because it was the standard networking software for the Army
   Medical Command. In addition, ITBC officials showed that they reviewed EMS
   software of Computer Associates, Hewlett-Packard Company, and Platinum
   Technology. The ITBC concluded that these EMS packages did not provide the
   features and complexity comparable to the Tivoli EMS. The GSA awarded three
   contracts (EMS software and server consolidation) using competitive contracting

                                       20
procedures. The GSA received four contractor price proposals and selected the
winning contractor based on technical capability, past performance, delivery
terms, and prices.

Allegation 4. The EMS contractor had not made adequate progress on the
contract.

Audit Results. The allegation was not substantiated. The contract performance
period was June 1, 1999, to December 31, 1999. On February 29, 2000, the ITBC
signed the acceptance certificate for the contract with McBride and Associates.
The acceptance certificate stated that McBride and Associates had delivered and
installed all the equipment required by the contract. The acceptance certificate
also stated that the Government had inspected and tested all the equipment.




                                   21
Appendix C. Funding and Leasing Criteria

United States Code
    Section 1501, title 31, United States Code, establishes minimum requirements for
    recording obligations for contracts. Specifically, for an agency to record a valid
    obligation, there must be documented evidence of an executed written agreement
    between agencies before the obligation of the appropriation or funds expires. The
    funds must be used for specific goods or services to be leased or purchased. This
    requirement applies to all interagency transactions.

    The Economy Act specifically dictates the authority for voluntary interagency
    agreements and governs such transactions in the absence of other, specific
    statutory authority. An Economy Act agreement must meet the requirements of
    31 U.S.C. section 1501(a)(1) with one additional requirement. Funds transferred
    under an Economy Act agreement may not exceed the period of availability of the
    source appropriation, if the performing agency has not performed or incurred
    valid obligations under the agreement.

    Section 1501, title 31, United States Code directs that an amount shall be recorded
    as an obligation only when supported by documentary evidence of a binding
    agreement between an agency and another person or agency. The use of
    inappropriate funds for capital leases would initially constitute a violation of the
    “purpose statute,” 31 U.S.C. 1301(a). If the acquiring command is unable to
    make adjustments to fund the acquisition from the correct appropriation, then an
    Antideficiency Act violation may occur, either at section 1341(a)(1)(A) or
    1517(a), title 31, United States Code. Those sections of the code prohibit
    expenditures and obligations exceeding the amount available in appropriations or
    administrative subdivisions of appropriations, respectively.

    Section 757, title 40, United States Code (40 U.S.C. 757) establishes the
    Information Technology Fund by specifying the content, costs, and capital
    requirements for the Information Technology Fund. The purpose of the
    Information Technology Fund is to provide information technology hardware,
    software, or services using multiyear contracts. The statute also provides that the
    funds obligated against the Information Technology Fund are available without
    fiscal year limitations.

Lease Purchase Analysis Guidance
    Federal Acquisition Regulation 7.4, “Equipment Lease or Purchase,” states that
    agencies must evaluate comparative costs and other factors, when determining
    whether to lease or purchase equipment, on a case-by-case basis. Agencies
    should consider some of the following factors: financial advantages, cumulative
    rental payments, and service costs.




                                        22
    Defense Acquisition Regulation Supplement 207.4, “Equipment Lease or
    Purchase,” mandates that requiring organizations prepare and provide contracting
    officers with justifications that support the decision to lease versus purchase
    equipment, if the equipment will be leased more than 60 days. The supplement
    also states that capital leases are essentially installment purchases of property,
    therefore, agencies must use procurement funds for capital leases.

    DoD Instruction 7041.3, “Economic Analysis for Decisionmaking,” November 7,
    1995, requires agencies to prepare a comparative cost analysis to show that the
    lowest cost method of acquisition has been considered at the least expensive life-
    cycle cost to the Government.

Capital Lease Funding Guidance
    Office of Management and Budget Bulletin No. 91-02, “Instructions on an
    October Update of the Baseline; Treatment of Purchases, Lease-Purchases, and
    Leases and Presentation of Credit Data in the FY 1992 Budget,” October 18,
    1990, provides the criteria for operating and capital leases. Bulletin No. 91-02
    was updated by Office of Management and Budget Circular A-11, part 3,
    “Planning, Budgeting, and Acquisition of Capital Assets,” July 12, 1999,
    however, the guidance on operating and capital leases did not change. The
    criteria defines a capital lease as any lease other than a lease-purchase (that is an
    asset transferred to the Government at the end of the lease term) that does not
    meet the criteria of an operating lease. An operating lease must meet all of the
    criteria shown in the following bulleted sentences. If the criteria is not met, the
    lease will be considered a capital lease or a lease-purchase, as appropriate.

       •   Ownership of the asset remains with the lessor during the term of the lease
           and is not transferred to the Government at or shortly after the end of the
           lease term.

       •   The lease does not contain a bargain-price purchase option.

       •   All risks of ownership of the asset remain with the lessor, unless the
           Government is at fault for such losses.

       •   The lease term does not exceed 75 percent of the estimated economic life
           of the asset.

       •   The present value of the minimum lease payments over the life of the
           lease does not exceed 90 percent of the fair market value of the asset at the
           inception of the lease.

       •   The asset is a general purpose asset rather than a special purpose asset of
           the Government, and is not built to the unique specification of the
           Government as lessee.




                                          23
        •   There is a private sector market for the asset.

        •   The asset is not constructed on Government land.

DoD Financial Management Regulations
     DoD Financial Management Regulation 7000.14-R, volume 4, chapter 7, section
     070207 implements the capital lease rules in Office of Management and Budget
     Bulletin No. 91-02.

     DoD Financial Management Regulation 7000.14-R, volume 2A, chapter 1 states
     that O&M funds are used for expenses incurred to operate and maintain the
     organization. Investments are defined as costs resulting in the acquisition of, or
     an addition to, end items, and are budgeted with procurement or military
     construction funds. In general, an item with a unit cost exceeding $100,000 is
     considered an investment. A contractor’s labor cost incurred for the production or
     the construction is included in determining the cost of an investment.

     DoD Financial Management Regulation 7000.14-R, volume 14, chapters 2
     through 10 addresses Antideficiency Act violations. Specifically, chapter 2
     addresses the types of Antideficiency Act violations and provides examples of the
     various violations. Chapters 3 through 10 provide requirements for conducting
     investigations of potential Antideficiency Act violations and reporting the results
     of the investigations.

Principles of Federal Appropriations Law
     General Accounting Office Appropriation Law, volume 1, chapters 4 and 5,
     discusses the purpose for which appropriated funds may be used, and the time
     limits within which they may be obligated and expended. Volume 2, chapter 7,
     discusses obligations including the criteria for recording obligations, the
     specificity requirement and interagency transactions.




                                          24
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller/Chief Financial Officer)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army
Commander, Army Medical Command
Commander, Army Medical Department Center and School
Commander, Fort Sam Houston
Director, Information Technology Business Center

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Non-Defense Federal Organizations and Individuals
Office of Management and Budget
General Services Administration




                                          25
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform




                                          26
Assistant Secretary of the Army (Financial
Management and Comptroller) Comments




                    27
28
Audit Team Members
   The Contract Management Directorate, Office of the Assistant Inspector General
   for Auditing, DoD, prepared this report. Personnel of the Office of the Inspector,
   DoD, who contributed to the report, are listed below.

      Gerald E. Stephenson
      Eric B. Edwards
      Michael T. Hill
      John R. Huddleston
      Kimberly L. Ginn
